CERTIFICATE OF SERVICE
No. 20-7028
AMOS MAST, MENNO MAST, SAM MILLER, and AMMON SWARTZENTRUBER,
Petitioners,
v.
COUNTY OF FILLMORE and MINNESOTA POLLUTION CONTROL AGENCY,
Respondents.
I, Gordon D. Todd, do hereby certify that, on this fifth day of March, 2021, I
caused a copy and an electronic copy of the Brief of Amici Curiae Jewish Coalition
for Religious Liberty and National Committee for Amish Religious Freedom in
Support of Petitioners in the foregoing case to be served by first class mail, postage
prepaid, and by email, on the following parties:
BRIAN NELSON LIPFORD
Southern Minnesota Regional Legal Services
903 West Center Street
Suite 230
Rochester, MN 55902
(507) 292-0080
brian.lipford@smrls.org
Counsel for Petitioners

CHRISTINA BROWN
Office of the Minnesota Attorney General
445 Minnesota Street
Suite 1400
St. Paul, MN 55101-2131
(651) 757-1471
christina.brown@ag.state.mn.us
Counsel for Respondent Minnesota
Pollution Control Agency
BRETT CORSON
101 Fillmore Street
P.O. Box 307
Preston, MN 55965
(507) 765-2530
countyattorney@co.fillmore.mn.us
Counsel for Respondent Fillmore
County, Minnesota
/s/ Gordon D. Todd
GORDON D. TODD
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

